No. 20-939
In the

Supreme Court of the United States
COLETTE MARIE WILCOX,
Petitioner,
v.
NATHAN H. LYONS, et al.,
Respondents.

On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Fourth Circuit

BRIEF IN OPPOSITION

Rosalie Pemberton Fessier
Counsel of Record
TimberlakeSmith
25 North Central Avenue
P. O. Box 108
Staunton, Virginia 24402
(540) 885-1517
rfessier@timberlakesmith.com
Counsel for Respondents

304300

A
(800) 274-3321 • (800) 359-6859

i
QUESTION PRESENTED
Whether the Equal Protection Clause encompasses a
pure retaliation claim that is not based on an unjustified
classification but on an employee’s report of discrimination.

ii
TABLE OF CONTENTS
Page
QUESTION PRESENTED . . . . . . . . . . . . . . . . . . . . . . . . i
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . ii
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . . . iv
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . 1
REASONS FOR DENYING THE PETITION  . . . . . . 3
A. This case is a poor vehicle for resolving the
lopsided circuit split as alternative casespecific grounds exist to affirm the decision of
the lower court, making the determination of
the constitutional question unnecessary. . . . . . . . 3
1.

The district court correctly held that
the temporal proximity of two and a half
months, in the absence of intervening
conduct of retaliatory animus by the
decisionmaker, was insufficient to
satisfy the causation element of a prima
facie case of retaliation.  . . . . . . . . . . . . . . . . 4

2.

The court of appeals incorrectly
concluded that the characterization of
the adverse employment action itself
as an “overreaction” was sufficient
to satisfy the causation element of
a prima facie case of retaliation in
the absence of sufficient temporal
proximity or intervening conduct of
retaliatory animus . . . . . . . . . . . . . . . . . . . . . 6

iii
Table of Contents
Page
3.

Application of the principles of judicial
restraint and constitutional avoidance
call for review of the case-specific
alternative grounds before reaching
the constitutional question, making
this case a poor vehicle for resolving
the question presented  . . . . . . . . . . . . . . . . . 8

B. The question presented lacks significant
national importance as it impacts only a
narrow subset of public employees and does
not deprive them of “any” avenue of redress
for claims of retaliation for reporting
discrimination.  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
1.

The question presented impacts only a
narrow subset of public employees thus
minimizing its national importance.  . . . . . . 9

2.

This subset of public employees has an
avenue of redress for claims of retaliation
for reporting discrimination through the
First Amendment.  . . . . . . . . . . . . . . . . . . . . 10

C. The court of appeals correctly concluded
that the Equal Protection Clause does not
encompass a pure retaliation claim. . . . . . . . . . . 11
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

iv
TABLE OF CITED AUTHORITIES
Page
CASES:
Boyd v. Ill. State Police,
384 F.3d 888 (7th Cir. 2004) . . . . . . . . . . . . . . . . . . . . . 3
Burton v. Ark. Sec’y of State,
737 F.3d 1219 (8th Cir. 2013)  . . . . . . . . . . . . . . . . . . . . 4
Clark Cnty. Sch. Dist. v. Breeden,
532 U.S. 268 (2001) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5
Edwards v. City of Goldsboro,
178 F.3d 231 (4th Cir. 1999)  . . . . . . . . . . . . . . . . . . . . 10
Farrell v. Planters Lifesavers Co.,
206 F.3d 271 (3d Cir. 2000) . . . . . . . . . . . . . . . . . . . . . . 7
Foster v. Univ. of Md.-E. Shore,
787 F.3d 243 (4th Cir. 2015) . . . . . . . . . . . . . . . . . . . . . 5
Hagans v. Lavine,
415 U.S. 528 (1974)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
Hernandez v. Fairfax Cnty.,
719 Fed. App. 184 (4th Cir. 2018) . . . . . . . . . . . . . . . 6, 7
Holland v. Wash. Homes, Inc.,
487 F.3d 208 (4th Cir. 2007) . . . . . . . . . . . . . . . . . . . . . 7

v
Cited Authorities
Page
Horne v. Reznick Fedder & Silverman,
154 Fed. App’x 361 (4th Cir. 2005)  . . . . . . . . . . . . . . . 5
King v. Rumsfeld,
328 F.3d 145 (4th Cir. 2003) . . . . . . . . . . . . . . . . . . . . . 5
Kirby v. Elizabeth City,
388 F.3d 440 (4th Cir. 2004) . . . . . . . . . . . . . . . . . . . . 10
Lettieri v. Equant, Inc.,
478 F.3d 640 (4th Cir. 2007) . . . . . . . . . . . . . . . . . . . . . 7
Lyng v. Nw. Indian Cemetery Protective Ass’n,
485 U.S. 439 (1988) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
Maldonado v. City of Altus,
433 F.3d 1294 (10th Cir. 2006) . . . . . . . . . . . . . . . . . . . 3
Martin v. Duffy,
858 F.3d 239 (4th Cir. 2017) . . . . . . . . . . . . . . . . . . . . 10
Pascual v. Lowe’s Horne Ctrs., Inc.,
193 Fed. App’x 229 (4th Cir. 2006)  . . . . . . . . . . . . . . . 5
Perry v. Kappos,
489 Fed. App’x 637 (4th Cir. 2012)  . . . . . . . . . . . . . . . 5
R.S.W.W., Inc. v. City of Keego Harbor,
397 F.3d 427 (6th Cir. 2005) . . . . . . . . . . . . . . . . . . . . . 3

vi
Cited Authorities
Page
Teigen v. Renfrow,
511 F.3d 1072 (10th Cir. 2007) . . . . . . . . . . . . . . . . . . . 3
Thomas v. Indep. Twp.,
463 F.3d 285 (3d Cir. 2006) . . . . . . . . . . . . . . . . . . . . . . 3
Thompson v. Starkville,
901 F.2d 456 (5th Cir. 1990) . . . . . . . . . . . . . . . . . . . . . 3
Vega v. Hempstead Union Free Sch. Dist.,
801 F.3d 72 (2d Cir. 2015) . . . . . . . . . . . . . . . . . . . . . . . 3
Watkins v. Bowden,
105 F.3d 1344 (11th Cir. 1997) . . . . . . . . . . . . . . . . . . . 3
Yatvin v. Madison Metro. Sch. Dist.,
840 F.2d 412 (7th Cir. 1988) . . . . . . . . . . . . . . . . . . . . . 3
STATUTES AND OTHER AUTHORITIES:
U.S. Const. Amend I. . . . . . . . . . . . . . . . . . . . . . . . .  1, 9, 10
42 U.S.C. § 1983  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
42 U.S.C. § 2000e(b) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
42 U.S.C. § 2000e–3(a) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

1
STATEMENT OF THE CASE
This case arises out of petitioner’s claim that she
was fired in retaliation for reporting sex discrimination.
She brought her claim solely under the Equal Protection
Clause pursuant to 42 U.S.C. § 1983. She does not assert a
retaliation claim under Title VII or the First Amendment.
Petitioner was a deputy Commonwealth’s Attorney for
Carroll County, Virginia employed by Respondent Nathan
H. Lyons. Petitioner’s Appendix (hereinafter “App.”)
2a. Respondent Phillip C. Steele was her co-worker.1
Petitioner alleges that she reported to Lyons that Steele
discriminated against her. Some two and a half months
later, Lyons terminated her for insubordination arising
out of an argument over her misuse of leave after she
challenged him about the applicability of the policy and
requested to see the leave policy before she signed the
written reprimand. App. 3a-4a. There are no facts alleged
regarding any intervening conduct by Lyons during those
two and a half months. Respondent Steele was not her
supervisor, nor was he alleged to be the decisionmaker
involved in her termination.
The district court dismissed the retaliation claim
without deciding the constitutional question as petitioner
failed to state a prima facie claim of retaliation under the
framework of Title VII, even assuming it was applicable.
App. 28a. The district court rejected petitioner’s argument
that temporal proximity of two and a half months alone
1. Steele was employed as a deputy Commonwealth’s
Attorney which was the same position as petitioner. Joint Appendix
submitted to the court of appeals (hereinafter “J.A.”) 136.

2
is enough to establish a causal connection between the
protected activity and the adverse employment action.
App. 25a. The district court noted that the only intervening
conduct advanced by petitioner as supporting causation
was that her co-workers ostracized her, which the court
found not to be probative of retaliatory animus since they
were not decisionmakers. App. 32a.
The court of appeals agreed that two and a half
months was not sufficient temporal proximity, standing
alone, to establish causation. App. 7a. However, it focused
on a new argument advanced by petitioner that petitioner’s
termination for insubordination, which was characterized
as an “overreaction,” was sufficient to state a prima
facie case of retaliation. App. 3a-4a. The court relied
upon the premise that a disproportionate response to a
minor infraction could be evidence of pretext and could
bolster the causation element of a prima facie case. App.
3a-4a. In the absence of sufficient temporal proximity or
intervening conduct evidencing retaliatory animus, the
court of appeals found that petitioner had sufficiently
alleged a prima facie case of retaliation based upon the
characterization of the termination itself.
Because the court had resolved the non-constitutional
issue in petitioner’s favor, it addressed the constitutional
question of whether a pure retaliation claim was cognizable
under the Equal Protection Clause. The court joined the
“vast majority of circuit courts to have considered the
question” 2 to hold that the Equal Protection Clause
2. The court of appeals identified at least six other circuits,
the Third, Fifth, Sixth, Seventh, Eighth, Tenth, and Eleventh,
who have considered the question and concluded that the Equal

3
cannot sustain a pure claim of retaliation. App. 16a.
The court properly rejected the lone circuit outlier, the
Second Circuit, which had concluded that retaliation is
actionable under the Equal Protection Clause because an
“equal protection claim parallels a Title VII claim” and
because discrimination sometimes includes retaliation in
other contexts. App. 22a. See Vega v. Hempstead Union
Free Sch. Dist., 801 F.3d 72, 82 (2d Cir. 2015). The court
below declined “to break new constitutional ground
based on the interpretation of statutes with different
histories, different structures, and different text than the
Fourteenth Amendment.” App. 22a.
REASONS FOR DENYING THE PETITION
A. This case is a poor vehicle for resolving the lopsided
circuit split as alternative case-specific grounds
exist to affirm the decision of the lower court,
making the determination of the constitutional
question unnecessary.
Seven circuits, including the court below, have
correctly concluded that the Equal Protection Clause
does not encompass a pure retaliation claim. 3 App. 16a.
Protection Clause does not encompass a pure retaliation claim.
(App. 16a-17a).
3. See Thomas v. Indep. Twp., 463 F.3d 285, 298 n.6 (3d Cir.
2006); Thompson v. Starkville, 901 F.2d 456, 468 (5th Cir. 1990);
R.S.W.W., Inc. v. City of Keego Harbor, 397 F.3d 427, 439-440 (6th
Cir. 2005); Boyd v. Ill. State Police, 384 F.3d 888, 898 (7th Cir.
2004); Yatvin v. Madison Metro. Sch. Dist., 840 F.2d 412, 418 (7th
Cir. 1988); Maldonado v. City of Altus, 433 F.3d 1294, 1308 (10th
Cir. 2006)); Teigen v. Renfrow, 511 F.3d 1072, 1084-86 (10th Cir.
2007); Watkins v. Bowden, 105 F.3d 1344, 1354 (11th Cir. 1997);

4
Petitioner asks this court to align with the lone circuit
on the solitary side of this seven to one split. However,
as there exist case-specific alternative grounds to affirm
the decision below, this case is a poor vehicle for resolving
this lopsided split.
The court of appeals should have adopted the district
court’s conclusion that it did not need to decide the
constitutional question of whether the Equal Protection
Clause encompasses a pure retaliation claim as even if it
did, there were insufficient facts alleged to state a prima
facie case of retaliation under the Title VII framework.
Application of the principles of judicial restraint and
constitutional avoidance calls for review of these
case-specific alternative grounds before reaching the
constitutional question, making this case a poor vehicle
for resolving the question presented.
1.

The district court correctly held that the
temporal proximity of two and a half months,
in the absence of intervening conduct of
retaliatory animus by the decisionmaker, was
insufficient to satisfy the causation element of
a prima facie case of retaliation.

The district court correctly held that petitioner’s
factual allegations did not state a prima facie case of
retaliation under the Title VII framework and granted
her leave to amend. Instead of amending the claim,
see also Burton v. Ark. Sec’y of State, 737 F.3d 1219, 1237 (8th Cir.
2013) (observing that other courts have rejected equal protection
retaliation claims and concluding that “no clearly established right
exists under the equal protection clause to be free from retaliation”
(internal quotation marks omitted)).

5
petitioner moved for reconsideration, arguing that her
allegations of temporal proximity of two and a half
months alone was sufficient to state a prima facie case for
retaliation. App. 28a-29a. The district court disagreed.4
While acknowledging that there was no bright temporal
line, the district court followed Fourth Circuit precedent
suggesting that two-and-a-half months between the
protected activity and the adverse action is “too long to
establish causation by temporal proximity alone.”5 App.
29a. The district court distinguished the cases cited by
petitioner and concluded that two and a half months alone
was not sufficiently close to establish causation. App. 29a.
“This case does not involve the kind of “very close” time
span between protected activity and adverse action that
gives rise to an inference of causation and establishes a
prima facie case of retaliation.” App. 32a.
The district court noted that in cases where temporal
proximity is missing, courts may look to the intervening
period for other evidence of retaliatory animus. App.
32a. The court nevertheless found that petitioner failed
to allege such retaliatory animus during the intervening
period, as the allegations that petitioner’s coworkers
4. Temporal proximity between an employer’s knowledge
of protected activity and an adverse employment action must be
“very close” before it will be sufficient evidence of causality to
establish a prima facie case absent other evidence. Clark Cnty.
Sch. Dist. v. Breeden, 532 U.S. 268, 273 (2001).
5. See King v. Rumsfeld, 328 F.3d 145, 151 n.5 (4th Cir. 2003);
Horne v. Reznick Fedder & Silverman, 154 Fed. App’x 361, 364
(4th Cir. 2005); see also Perry v. Kappos, 489 Fed. App’x 637, 643
(4th Cir. 2012); Pascual v. Lowe’s Horne Ctrs., Inc., 193 Fed. App’x
229, 233 (4th Cir. 2006); cf. Foster v. Univ. of Md.-E. Shore, 787
F.3d 243, 247 (4th Cir. 2015).

6
distanced themselves from her was not probative of
retaliatory animus since they were not decisionmakers.
App. 32a. As the complaint failed to allege facts sufficient
to state a prima facie case of retaliation, the district
court denied petitioner’s motion for reconsideration and
dismissed the retaliation claim without having to decide
the constitutional question.
2.

The court of appeals incorrectly concluded
that the characterization of the adverse
employment action itself as an “overreaction”
was sufficient to satisfy the causation element
of a prima facie case of retaliation in the
absence of sufficient temporal proximity or
intervening conduct of retaliatory animus.

The court of appeals reached a different conclusion.
While acknowledging that two and a half months
between the protected activity and the adverse action
was insufficient to establish causation in the absence
of other evidence of retaliation, the court nevertheless
found that causation was adequately plead based on
the characterization of the adverse action itself as an
“overreaction.” App. 7a. The court focused on petitioner’s
termination for insubordination which it characterized as
an “overreaction” resulting from an argument petitioner
had with her employer about her misuse of the leave policy
and her request to review the policy before signing the
written reprimand. App. 3a-4a. The court relied upon
the premise that a disproportionate response to a minor
infraction could be evidence of pretext and could bolster
the causation element of a prima facie case. App. 3a4a. The court cited to its prior opinion in Hernandez v.
Fairfax Cnty., 719 Fed. App. 184, 189-190 (4th Cir. 2018)
(per curiam) where it held that the relative severity of the

7
reprimand as well as its timing, and “the other evidence in
the record leading up to Hernandez’s protected activity”
were sufficient to establish causation.
Here, unlike in Hernandez, there is no “other evidence”
in the complaint to bolster the causal connection, only a
subjective characterization of the termination itself as
an “overreaction.” The court pointed to no allegations
of ongoing antagonism or retaliatory animus during the
intervening period or inconsistent reasons for termination,
which are the additional factors considered by the courts
in determining whether a prima facie case of causation has
been met in the absence of temporal proximity. See Lettieri
v. Equant, Inc., 478 F.3d 640, 650 (4th Cir. 2007); Farrell
v. Planters Lifesavers Co., 206 F.3d 271, 281 (3d Cir. 2000).
This conclusion significantly undermines the causation
element necessary to state a prima facie retaliation case.
Gone is the need for temporal proximity or intervening
conduct evidencing retaliatory animus. A plaintiff need do
no more than paint the adverse action as an “overreaction”
to establish the causal link no matter how remote the
protected activity occurred in relation to the adverse action
and no matter the absence of other intervening evidence
suggesting retaliatory animus by the decisionmaker. The
court improperly focused on the perception of the employee
rather than the perception of the decisionmaker which
should have been the relevant inquiry. See Holland v. Wash.
Homes, Inc., 487 F.3d 208, 217 (4th Cir. 2007).
Proper consideration of the requirements for pleading
a prima facie case of retaliation directs a finding that the
complaint would not survive dismissal even if a claim of
retaliation were cognizable under the Equal Protection
Clause.

8
3.

Application of the principles of judicial
restraint and constitutional avoidance call for
review of the case-specific alternative grounds
before reaching the constitutional question,
making this case a poor vehicle for resolving
the question presented.

A fundamental and long-standing principle of
judicial restraint requires that courts avoid reaching
constitutional questions in advance of the necessity of
deciding them. Lyng v. Nw. Indian Cemetery Protective
Ass’n, 485 U.S. 439, 445 (1988); Hagans v. Lavine, 415
U.S. 528, 546 n.12 (1974) (noting the wisdom of the federal
policy of avoiding constitutional adjudication where not
absolutely essential to disposition of a case). The district
court correctly determined that the complaint failed to
state a prima facie case of retaliation and thus avoided
having to decide the constitutional question of whether
the Equal Protection Clause encompasses a pure claim
of retaliation. This was the correct decision.
Application of the principles of judicial restraint and
constitutional avoidance call for review of the case-specific
alternative grounds before reaching the constitutional
question. Proper consideration of those alternative
grounds will render a decision on the constitutional
question unnecessary, thus making this case a poor vehicle
for resolving the question presented.

9
B. The question presented lacks significant national
importance as it impacts only a narrow subset
of public employees and does not deprive them of
“any” avenue of redress for claims of retaliation
for reporting discrimination. 6
Petitioner argues that this case is important because
it is necessary to provide an avenue of redress for those
public employees of small public employers who are not
subject to the antiretaliation provisions of Title VII who
suffer from retaliation for reporting discrimination.
This impacts a narrow subset of public employees who
indeed have an adequate alternative avenue of redress
for retaliation through the First Amendment.
1.

The question presented impacts only a narrow
subset of public employees thus minimizing its
national importance.

As petitioner acknowledges, in most cases an
employee who has faced retaliation for complaints about
discrimination in the workplace may pursue a claim under
Title VII. See 42 U.S.C. § 2000e–3(a). However, petitioner
belongs to that narrow subset of public employees who are
employed by employers with fewer than 15 employees to
which Title VII protection is not afforded. See 42 U.S.C.
§ 2000e(b). The impact on this narrow subset of public
6. Qualified immunity had not yet been asserted at the time
the district court reached its decision. Even if this Court were
to decide the question presented in petitioner’s favor, qualified
immunity will ultimately relieve respondents of liability in this
case as, by petitioner’s own argument, her right to be free from
retaliation under the Equal Protection Clause was not clearly
established at the time of her termination.

10
employees weighs against a finding of national importance
and against review by this Court.
2.

This subset of public employees has an avenue
of redress for claims of retaliation for reporting
discrimination through the First Amendment.

Contrary to petitioner’s assertion, this case does not
deprive this subset of public employees of “any” avenue of
redress for claims of retaliation. While these individuals
may lack an avenue of redress for retaliation under Title
VII, they nevertheless have open to them an avenue
of redress for retaliation under the First Amendment
and so are not left without any remedy. As the court of
appeals noted, retaliation for reporting alleged acts of
sex discrimination imposes negative consequences on an
employee because of the employee’s report, not because
of the employee’s sex. App. 12a. Thus, such claims arise
under the First Amendment. Martin v. Duffy, 858 F.3d
239, 252 (4th Cir. 2017); Kirby v. Elizabeth City, 388 F.3d
440, 447 (4th Cir. 2004); Edwards v. City of Goldsboro, 178
F.3d 231, 250 (4th Cir. 1999).7
Despite having this avenue of redress available,
petitioner chose not to assert a retaliation claim under the
First Amendment but rather stood on her purported claim
under the Equal Protection Clause. To the extent the
decision below effectively deprived petitioner of “any” avenue
of redress for her claim of retaliation, such deprivation was
7. The court noted that to the extent a public employee links
an alleged retaliatory action to her gender, that allegation would
constitute part of an equal protection discrimination claim, not
a freestanding retaliation claim, which the court noted had not
been alleged here. App. 16a.

11
caused by petitioner’s strategic decisions below, is limited to
this case, and does not stand to limit the avenue of redress
available to other similarly situated litigants.
C. The court of appeals correctly concluded that the
Equal Protection Clause does not encompass a pure
retaliation claim.
For the reasons set forth in the opinion of the court
below, the conclusion that the Equal Protection Clause
does not encompass a pure retaliation claim is correct.
Petitioner’s argument that because antidiscrimination
statutes have been construed to include a claim for
retaliation, then so too should the Equal Protection Clause
is without merit.
CONCLUSION
For the reasons described herein, this Court should
deny Petitioners’ Petition for a Writ of Certiorari.
			

Respectfully Submitted,
Rosalie Pemberton Fessier
Counsel of Record
TimberlakeSmith
25 North Central Avenue
P. O. Box 108
Staunton, Virginia 24402
(540) 885-1517
rfessier@timberlakesmith.com
Counsel for Respondents

